USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 1 of 13

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12971
Non-Argument Calendar
D.C. Docket No. 8:18-cv-00494-JSM-AAS

CHRISTINA PAYLAN, Dr.,
Plaintiff-Appellant,
versus
DARRELL DIRKS,
in his individual capacity,
CHRISTINE BROWN,
in her individual capacity, et al.,
Defendants-Appellees.

No. 19-10859
Non-Argument Calendar
D.C. Docket No. 8:15-cv-01366-CEH-AEP

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 2 of 13

CHRISTINA PAYLAN, M.D.,
Plaintiff-Appellant,
versus
PAMELA BONDI, individual capacity,
MARK OBER, individual capacity, et al.,
Defendants-Appellees.

Appeals from the United States District Court
for the Middle District of Florida
(February 17, 2021)
Before WILLIAM PRYOR, Chief Judge, LAGOA and ANDERSON, Circuit
Judges.
PER CURIAM:
In this consolidated appeal, Christina Paylan appeals pro se the partial
dismissal of and partial summary judgment against her two complaints that state
officials and her fiancee’s family violated federal and state law in the events that
led to her state convictions for prescription fraud and fraudulent use of personal
information. Paylan filed in the district court a complaint against the City of
Tampa, Assistant State Attorneys Darrell Dirks and Christine Brown, Deputy
Comaneci Devage of the Hillsborough County Sheriffs Office, and eight other
officials. 42 U.S.C. § 1983. The district court dismissed the claims against every
2

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 3 of 13

official—except for two against Devage—for failure to state a plausible claim for
relief, see Fed. R. Civ. P. 12(b)(6), and later entered summary judgment in
Devage’s favor based on qualified immunity. Paylan also filed in state court a
similar complaint against Dirks, Brown, and other officials, which they removed to
the district court. See 28 U.S.C. §§ 1331, 1343. The district court later dismissed as
untimely her federal claims against every official except state prosecutors Dirks
and Brown, dismissed the claims against the prosecutors as barred by res judicata,
and declined to exercise jurisdiction over her state-law claims. Paylan challenges
the disposition of her two complaints, the denial of her motions to recuse the judge
in the action she commenced in the district court, and the removal of her action
against Dirks and Brown. We affirm.
Paylan’s two complaints shared a common theme that her wealthy fiancee’s
family, the Abdos, blamed her for his waning generosity and retaliated by
fabricating evidence against her for illegally dispensing and abusing narcotics.
Paylan alleged that, while she practiced medicine, the Abdo family falsely reported
to state officials that she had acquired large amounts of Demerol and administered
it to her fiancee and fabricated evidence that Tampa police officers used to obtain
warrants to arrest her and to search her home in June 2011 and to rearrest her in
July 2011. Paylan also alleged that officers lacked probable cause to arrest her and
to search her home and violated her right to use a toilet in private while executing
3

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 4 of 13

the warrant to search her home and that prosecutors acted unlawfully by aiding
officers to secure warrants and to collect evidence, by coercing witnesses, by
sullying her reputation with her patients and pharmacists, and by pursuing bogus
charges against her.
Paylan’s federal complaint alleged that Devage, Sheriff David Gee, four
Tampa police officers, the Chief of Police, the City of Tampa, State Attorneys
Dirks and Brown, their supervisor, and Florida Attorney General Pamela Bondi
violated Paylan’s civil rights in the events that led to her convictions. See 42
U.S.C. § 1983. After the district court identified deficiencies in her pleading and
granted her leave to amend, Paylan filed a second amended complaint containing
16 counts for relief. In counts one through eight and count fourteen, Paylan
complained that the defendants had violated her federal civil rights and state law in
the search of her home, her arrests, and her prosecution. See 42 U.S.C. § 1983. In
counts nine through twelve, thirteen, fifteen, and sixteen, Paylan alleged municipal
liability, supervisory liability, violations of the Racketeer Influenced and Corrupt
Organizations Act, 18 U.S.C. § 1962(c)-(d), and a state racketeering law, Fla. Stat.
§ 772.103(3)-(4), and torts under state law.
The district court did not err in determining that counts one through twelve
and fourteen through sixteen failed to state a claim for relief from which the
district court could draw a plausible inference that the defendants deprived her of
4

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 5 of 13

rights protected by the Constitution and state law in connection with her two
arrests and the search of her home. See Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). A three-page criminal report affidavit, which Paylan incorporated by
reference in her complaint, see SFM Holdings, Ltd. v. Banc ofAm. Sec., LLC, 600
F.3d 1334, 1337 (11th Cir. 2010), provided probable cause to issue a warrant to
arrest her for prescription fraud in July 2011. And the warrants to arrest Paylan and
to search her home in June 2011 were likewise supported by an affidavit that she
attached to her complaint. See Fed. R. Civ. P. 10(c). That affidavit stated that the
Abdo family had evidence that Abdo and Paylan were abusing Demerol; that
Abdo’s son had observed evidence of illicit drug use inside Paylan’s home; that the
affiant heard Paylan’s assistant state during a telephone call that Abdo’s and
Paylan’s skin looked yellow and that he had seen her order, take large quantities
from her clinic, and write false prescriptions in the name of her patient L.B. for
Demerol; and that different officers on three separate occasions discovered in
Paylan’s trash empty vials of and prescriptions written to L.B. for Demerol and
supplies for its injection. The affidavit established a fair probability that Paylan had
unlawfully obtained and administered Demerol and that her home contained
evidence of those crimes. See Illinois v. Gates, 462 U.S. 213, 238 (1983).
Paylan’s challenges to the affidavit supporting the search and arrest warrants
in June 2011 fail. Paylan argues that the affidavit included false statements from
5

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 6 of 13

other witnesses, but Paylan never alleged that the warrant affiant included any facts
he knew were false. See Franks v. Delaware, 438 U.S. at 154, 171-72 (1978). Nor
do Paylan’s arguments about the affidavit negate the probable cause established by
the evidence that officers discovered in her trash during their investigation. See
United States v. Novaton, 271 F.3d 968, 986-87 (11th Cir. 2001). Paylan
complains that the warrant affiant should have conducted a more thorough
investigation, but an officer’s investigation must only establish a fair probability
that the subject of a warrant has committed a crime and that incriminating evidence
would be discovered in the location sought to be searched. See United States v.
Martin, 297 F.3d 1308, 1314 (11th Cir. 2002).
The district court correctly dismissed all the officials in Paylan’s second
amended complaint except Devage. In counts one and four, Paylan failed to state a
plausible claim that Tampa officers and prosecutors Dirks and Brown fabricated
evidence to arrest her because the warrant affidavits were valid and provided
probable cause to search her home. See Iqbal, 556 U.S. at 678. The existence of
probable cause also defeated her claims of malicious prosecution against Tampa
officers, Dirks, Brown, and State Attorney Mark Ober, Paez v. Mulvey, 915 F.3d
1276, 1285 (11th Cir. 2019), and retaliation for her exercising her right to protest
her arrests and prosecution, DeMartini v. Town of GulfStream, 942 F.3d 1277,
1289 (11th Cir. 2019). Because officers executed valid arrest and search warrants,
6

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 7 of 13

Paylan failed to state plausible claims against Tampa officers, Dirks, and Brown
for false arrests, Ortega v. Christian, 85 F.3d 1521, 1525 (11th Cir. 1996); Bolanos
v. Metr. Dade. Cnty., 677 So. 2d 1005, 1005 (Fla. Dist. Ct. App. 1996), unlawful
search, Skinner v. Ry. Labor Executives ’ Ass’n, 489 U.S. 602, 619 (1989),
conspiring to falsely arrest and prosecute her, Grider v. City ofAuburn, Ala., 618
F.3d 1240, 1260 (11th Cir. 2010), or racketeering by fabricating evidence to make
false arrests, see Jackson v. BellSouth Telecomm., 372 F.3d 1250, 1263-64 (11th
Cir. 2004). And because Paylan failed to state valid claims against the officers and
prosecutors, her claims of municipal liability, Polk Cty. v. Dodson, 454 U.S. 312,
326 (1981), and supervisory liability, Paez, 915 F.3d at 1291, failed too. Paylan
also failed to state plausible claims against all officials except Devage for
intentional infliction of emotional distress based on the two arrests and ensuing
prosecution, see Kim v. JungHyun Chang, 249 So. 3d 1300, 1305 (Fla. Dist. Ct.
App. 2018), or that Tampa officers and State Attorneys Ober, Dirks, and Brown
committed an abuse of process by arresting Paylan, seizing incriminating evidence
from her home, and prosecuting her for her offenses, S & I Investments v. Payless
Flea Mkt., Inc., 36 So. 3d 909, 917 (Fla. Dist. Ct. App. 2010).
The district court did not abuse its discretion by denying Paylan a third
opportunity to amend before dismissing all her claims against every official except
Devage. A plaintiff should be given an opportunity to amend when “a more
7

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 8 of 13

carefully drafted complaint” might state a claim, but the district court need not
accept an amendment when “there has been undue delay, bad faith, dilatory
motive, or repeated failure to cure deficiencies by amendments previously
allowed,” if “allowing amendment would cause undue prejudice to the opposing
party,” or if “amendment would be futile ” Bryant v. Dupree, 252 F.3d 1161, 1163
(11th Cir. 2001). The district court dismissed Paylan’s amended complaint for
failure to allege facts that plausibly undermined “the validity of the probable cause
for the search of her residence ... [and] her two arrests.” Paylan failed to cure
those deficiencies in her second amended complaint despite receiving two
extensions before filing the pleading. See Campbell v. Air Jam. Ltd., 760 F.3d
1165, 1168-69 (11th Cir. 2014). Nor did she remedy the defect in her proposed
third amendment; instead, she sought to add defendants and facts related to the
timeliness of her criminal proceedings.
The district court also did not err by granting summary judgment based on
qualified immunity in favor of Devage and against Paylan’s complaint that the
deputy invaded her privacy. Paylan alleged that Devage, a female officer, infringed
her right to bodily privacy in violation of the prohibition against an unreasonable
search and seizure by requiring her to use the bathroom while leaving the door ajar.
See Los Angeles Cty. v. Rettele, 550 U.S. 609, 615 (2007); Cottrell v. Caldwell, 85
F.3d 1480, 1490 (11th Cir. 1996); Fortner v. Thomas, 983 F.2d 1024, 1026 (11th
8

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 9 of 13

Cir. 1993). But Devage’s open-door requirement was reasonably limited in scope
and in duration. SeeRettele, 550 U.S. at 615; Fortner, 983 F.2d at 1030. Paylan
was an arrestee with a diminished expectation of privacy while officers searched
her home. See Riley v. Cal, 573 U.S. 373, 391-92 (2014). Devage’s open-door
requirement served the legitimate purposes of preventing Paylan from interfering
with the ongoing search and from harming herself. Although officers of the
opposite sex were in adjacent rooms, Paylan offered no evidence that any male
officer observed her using the bathroom. Paylan alleged that Devage belittled her,
but “verbal taunts.... however distressing ... [without more do not] deprived [an
arrestee] of [her] constitutional rights,” Edwards v. Gilbert, 867 F.2d 1271, 1273
n.l (11th Cir. 1989). Even if Devage acted with “evil intentions[, that would] ...
not make a Fourth Amendment violation out of [her] objectively reasonable
[action]....” Graham v. Connor, 490 U.S. 386, 397 (1989).
Although we construe pro se briefs liberally, a pro se litigant who makes no
substantive argument on an issue abandons it. Timson v. Sampson, 518 F.3d 870,
874 (11th Cir. 2008). Paylan does not dispute that Devage’s open-door requirement
and her statements to other officers disparaging Paylan’s appearance and candor do
not qualify as sufficiently outrageous to inflict severe emotional distress. And she
does not dispute that Devage engaged in no misconduct for which Sheriff Gee
could be held liable as a supervisor.
9

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 10 of 13

The district judge, Charlene Honeywell, also did not abuse her discretion by
denying Paylan’s motions to disqualify her. Paylan argued that Judge Honeywell’s
“impartiality might reasonably be questioned,” 28 U.S.C. § 455(a), and that she
harbored “a personal bias or prejudice,” id. § 455(b)(1), because her former
husband, Gerald Honeywell, had served earlier as an officer in the Tampa police
department. But Paylan offered no evidence that Mr. Honeywell participated in or
had personal knowledge about Paylan’s criminal investigation. And the judge’s
adverse rulings were “insufficient to form a basis for recusal.” United States v.
Berger, 375 F.3d 1223, 1228 (11th Cir. 2004). Paylan proved no interest or bias
against her that required Judge Honeywell to recuse.
The district court also did not err by denying Paylan’s motion to remand the
action she commenced in state court. When a defendant removes a civil action
based on federal-question jurisdiction, 28 U.S.C. § 1441(a), all defendants properly
joined and served must join or consent to the removal. Id. § 1446(b)(2)(A). Any
defendant who fails to file a notice of removal within 30 days of service of process
may consent to a timely removal by a later-served defendant. Id. § 1446(b)(2)(B)
& (C); Bailey v. Janssen Pharmaceutica, Inc., 536 F.3d 1202, 1209 (11th Cir.
2008). After Paylan filed a third amended complaint that alleged the Abdo family,
Dirks, Brown, three Tampa officers, two deputies in the Sheriffs Office, and
Gerald Honeywell had deprived her of rights protected by federal and state law, an
10

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 11 of 13

officer served last with process timely removed her action based on federalquestion jurisdiction. The district court, as it was permitted to do, sua sponte
inquired whether all the defendants agreed to removal, see In re Bethesda Mem 7
Hosp., Inc., 123 F.3d 1407, 1410-11 (11th Cir. 1997), and they did so, which cured
any procedural defect, see 28 U.S.C. § 1446(b)(2)(C). Although Gerald did not
respond, because he had not been served with process, his consent was not
required. See Bailey, 536 F.3d at 1209.
After removal, the district court correctly dismissed as untimely the federal
claims against every defendant except prosecutors Dirks and Brown. Pay Ian’s
claims that officials deprived her of rights in violation of federal law in connection
with her arrest and prosecution were subject to the four-year statute of limitation in
Florida applicable to actions for personal injuries. See McGroarty v. Swearingen,
977 F.3d 1302, 1307 (11th Cir. 2020). Her claims accrued when “the facts which
would support a cause of action [were] ... or should [have] be[en] apparent to”
Paylan, Mullinax v. McElhenney, 817 F.2d 711, 716 (11th Cir. 1987)—at the latest,
July 1, 2011, when officers arrested Paylan a second time. The four-year deadline
expired by July 1,2015, more than two years before Paylan filed an amended
complaint in January 2018 that added the Abdo family, Tampa officers, and
Honeywell as defendants and before she filed a third amended complaint in March

n

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 12 of 13

2018 that added the Sheriffs deputies as parties. The limitation period commenced
regardless of Paylan’s failure to serve process on Honeywell.
Paylan argues for equitable tolling, but she failed to act diligently. See
Villarreal v. R.J. Reynolds Tobacco Co839 F.3d 958, 971 (11th Cir. 2016) (en
banc). She commenced an action in federal court concerning the same incidents
against prosecutors Dirks and Brown and Tampa officers several months before the
four-year deadline expired. And Paylan waited too long to sue the Abdo family and
the Sheriffs deputies for unlawful acts they allegedly committed in 2013. See
McGroarty, 977 F.3d at 1307.
The district court also did not err by dismissing Paylan’s federal law claims
against prosecutors Dirks and Brown in the removed action. We need not consider
whether the claims are barred by res judicata because we can affirm on the
alternative ground identified by the district court. Paylan failed to state a plausible
claim for relief against Dirks or Brown based on fabricated evidence because the
warrant affidavits were valid and provided probable cause to obtain the warrants to
search her home and to arrest her twice. See Iqbal, 556 U.S. at 678; Fed. R. Civ. P.
12(b). And the existence of probable cause defeated Paylan’s complaint of a
retaliatory prosecution by Dirks and Brown. See DeMartini, 942 F.3d at 1289.
The district court also did not abuse its discretion when it denied Paylan’s
motion to amend the complaint in the removed action. Paylan amended her
12

USCA11 Case: 19-10859

Date Filed: 02/17/2021

Page: 13 of 13

complaint several times in the state court. After removal of the action, the officials
moved to dismiss PayIan’s complaint for failure to state a claim and identified
deficiencies in her pleading. Paylan obtained leave to amend, but instead of curing
the deficiencies, she simply added defendants to her complaint. The district court
reasonably determined that it would be futile to give Paylan another opportunity to
amend. See Campbell, 760 F.3d at 1168-69.
AFFIRMED.

13

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 1 of 15 PagelD 2798

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
DR. CHRISTINA PAYLAN,
Plaintiff,
Case No. 8:18-cv-494-T-30AAS

v.
DARRELL DIRKS, in his individual
capacity, CHRISTINE BROWN, in her
individual capacity, BRIAN BISHOP,
RUSSELL MARCOTRIGIANO, KENNETH
MORMAN, GERALD HONEYWELL,
KHALIL ABDO, MARIE SILVA,
MICHAEL QUILL, NADA ABDO QUILL,
TIMOTHY ALLEN, and KYLE
ROBINSON,
Defendants.

ORDER
THIS CAUSE comes before the Court upon Defendants’ Motions to Dismiss filed at
Dkts. 54, 58, 59, and 96 and Plaintiffs Responses thereto. After careful review of the
motions, Plaintiffs responses, and all other related filings, including the detailed record in
this case, the Court concludes that the motions should be granted to the extent that all the
federal claims in this case are subject to dismissal with prejudice.
Specifically, the federal claims against Defendants Brian Bishop, Russell
Marcotrigiano, Kenneth Morman, Gerald Honeywell, Khalil Abdo, Marie Silva, Michael
Quill, Nada Abdo Quill, Timothy Allen, and Kyle Robinson (“the ten newly added
Defendants”) are dismissed with prejudice because they are barred by the statute of

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 2 of 15 PagelD 2799

limitations. The federal claims against original Defendants Darrell Dirks and Christine
Brown are dismissed with prejudice pursuant to res judicata and failure to state a claim under
Rule 12(b)(6) of the Federal Rules of Civil Procedure.
The Court declines to retain supplemental jurisdiction over the state law claims.
Accordingly, the state law claims will be remanded to state court, which is the court best
equipped to research and rule on matters of state law. This is especially true in light of this
case’s protracted history, which began in 2014, in the Thirteenth Judicial Circuit, in and for
Hillsborough County, Florida, and which would have remained there but for Plaintiff s recent
addition of the ten newly added Defendants.

BACKGROUND
The Court begins with this case’s procedural history, which began more than four
years ago in a Florida state court. On or about April 14,2014, pro se Plaintiff Dr. Christina
Paylan filed her first complaint in the Thirteenth Judicial Circuit, in and for Hillsborough
County, Florida, alleging a malicious prosecution claim against Defendants Darrel Dirks and
Christine Shiver Brown. The first complaint alleged that Dirks and Brown, who were
Assistant State Attorneys during the relevant time, maliciously prosecuted her “for over two
years when the speedy trial time had expired” in a criminal case. In a nutshell, the criminal
case related to Plaintiffs arrests on June 9, 2011 and July 1, 2011 for narcotics violations.
On June 25, 2014, the state court dismissed the first complaint on Defendants’ motion.

Page 2 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 3 of 15 PagelD 2800

On July 15,2014, Plaintiff filed an amended complaint (the “second complaint”)- The
second complaint added Defendant Mark Ober and added several additional causes of action.
On June 3, 2015, the state court dismissed the second complaint on Defendants’ motion.
On June 23,2015, Plaintiff filed another amended complaint (the “third complaint”).
The third complaint was against Dirks, Brown, and Ober and again alleged claims related to
her June 9, 2011 and July 1, 2011 arrests. The claims included violations of the Fourth,
Fifth, and Fourteenth Amendments, tortious interference with an advantageous business
relationship, defamation, and defamation by implication. On November 9, 2015, the state
court dismissed the third complaint with prejudice on Defendants’ motion. Plaintiff appealed
the dismissal to Florida’s Second District Court of Appeal (the “Second DCA”).
On October 11, 2017, the Second DCA affirmed without comment the trial court’s
dismissals with prejudice except for the dismissal of the Fourth Amendment and tortious
interference with a business relationship claims alleged against Dirks and Brown. The
Second DCA concluded that: “Paylan sufficiently alleged deprivation of her civil rights
under the Fourth Amendment and tortious interference with her business relationships.
Although she did not sufficiently attribute specific improper conduct to a specific ASA in
every instance, she did raise some specific allegations against both ASA Dirks and ASA
Brown.” Paylan v. Dirks, 228 So. 3d 679, 680 (Fla. 2d DCA 2017).
After the remand, the state court instructed Plaintiff to file an amended complaint with
respect to the Fourth Amendment and tortious interference claims against Dirks and Brown.

Page 3 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 4 of 15 PagelD 2801

The state court noted that Plaintiff should clearly identify the particular defendant to which
she attributed a particular improper act.
On January 5, 2018, Plaintiff amended her complaint (the “fourth complaint”). The
fourth complaint amended the two claims against Dirks and Brown. But it also added
additional claims and eight new defendants. On March 1, 2018, one of those newly added
defendants, Defendant Kenneth Morman, removed the action to this Court based on federal
question jurisdiction. The Notice of Removal noted that Plaintiff alleged, in relevant part,
claims of violations of her constitutional rights pursuant to 42 U.S.C. §1983. The other
served defendants consented to the removal.
Subsequently, all of the served defendants moved to dismiss the fourth complaint on
various grounds and Plaintiffrequested that she be permitted further amendment. This Court
allowed Plaintiff to file another amended complaint.
On April 6, 2018, Plaintiff filed her “First Amended Complaint,” which is really
Plaintiffs fifth complaint. The fifth complaint added two additional defendants and four
additional claims for a total of twelve defendants and seven claims. The fifth complaint
lumps most of the defendants together and is not particular as to which defendant committed
what act. In sum, the fifth complaint alleges the following claims related to Plaintiffs June
9, 2011 and July 1, 2011 arrests:
Count 1-42 U.S.C. § 1983 violation against Defendants Dirks, Brown, Bishop,
Honeywell, Abdo, Silva, Quill, and Abdo Quill related to the June 9, 2011
arrest

Page 4 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 5 of 15 PagelD 2802

Count II - 42 U.S.C. §1983 violation against Defendants Dirks, Brown,
Bishop, Marcotrigiano, Abdo, Silva, Quill, Abdo Quill, Robinson, and Allen
related to the July 1, 2011 arrest
Count III - Fabrication ofEvidence against Defendants Abdo, Silva, Quill, and
Abdo Quill
Count IV - Fraudulent Concealment related to the June and July 2011 arrests
against all Defendants
Count V - Tortious Interference with an Advantageous Business Relationship
against Defendants Dirks, Brown, Bishop, Abdo, Silva, Quill, and Abdo Quill
Count VI - 42 U.S.C. §1983 violation (Retaliatory Arrest and Prosecution)
against Dirks, Brown, and Bishop
Count VII - conspiracy (state law) against all Defendants.
(Dkt. 53).
Now all Defendants move to dismiss.1 The ten newly added Defendants argue that
all claims against them are barred by the statute of limitations. The Court agrees based on
a review of the face of the fifth complaint and dismisses the federal claims against the ten
newly added Defendants with prejudice. Defendants Dirks and Brown argue that the claims
against them are barred by resjudicata and otherwise fail to state a claim. The Court agrees
that both of these reasons subject the federal claims to dismissal with prejudice. As
explained further below, the Court declines to exercise supplemental jurisdiction over the

1 To date, Plaintiff has not perfected service on Defendant Gerald Honeywell and has filed
a motion (Dkt. 99) requesting that the Court deem service effective because Plaintiff believes
Honeywell is evading service. Because all of the federal claims against Honeywell are barred by
the statute of limitations, this motion will be denied as moot. Plaintiff may seek relief from the state
court regarding this issue after the remand of the state law claims.
Page 5 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 6 of 15 PagelD 2803

Florida claims. The state court and, ifnecessary, Second DCA are better equipped to address
the merits of these claims, especially in light of their knowledge of this litigation.
STANDARD OF REVIEW
Federal Rule of Civil Procedure 12(b)(6) allows a complaint to be dismissed for
failure to state a claim on which relief can be granted. When reviewing a motion to dismiss,
courts must limit their consideration to the well-pleaded allegations, documents central to or
referred to in the complaint, and matters judicially noticed. See La Grasta v. First Union
Securities, Inc., 358 F.3d 840, 845 (11th Cir. 2004) (internal citations omitted); Day v.
Taylor, 400 F.3d 1272, 1276 (11th Cir. 2005). Furthermore, they must accept all factual
allegations contained in the complaint as true, and view the facts in a light most favorable
to the plaintiff. See Erickson v. Pardus, 551 U.S. 89, 93-94 (2007).
Legal conclusions, though, “are not entitled to the assumption of truth.” Ashcroft v.
Iqbal, 556 U.S. 662, 664 (2009). In fact, “conclusory allegations, unwarranted factual
deductions or legal conclusions masquerading as facts will not prevent dismissal.” Davila
v. Delta Air Lines, Inc., 326 F.3d 1183, 1185 (11th Cir. 2003). To survive a motion to
dismiss, a complaint must instead contain sufficient factual matter, accepted as true, to “state
a claim to relief that is plausible on its face.” Iqbal, 556 U.S. at 678 (internal quotation
marks and citations omitted). This plausibility standard is met when the plaintiff pleads
enough factual content to allow the court “to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Id. (internal citations omitted).
Because the Plaintiff is proceeding pro se, the Court reads her pleadings liberally and
adopts a less stringent standard than for one drafted by an attorney. Jones v. Fla. Parole
Comm’n, 787 F.3d 1105, 1107 (11th Cir. 2015). “This liberal construction, however, does
Page 6 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 7 of 15 PagelD 2804

not give a court license to serve as de facto counsel for a party, or to rewrite an otherwise
deficient pleading in order to sustain an action.” Hickman v. Hickman, 563 Fed.Appx. 742,
743 (11th Cir. 2014) (internal quotation marks and citations omitted).
DISCUSSION
I.

The Statute of Limitations Bars the Federal Claims against the Ten Newly
Added Defendants
A complaint may be dismissed when the existence of an affirmative defense “clearly

appears on the face of the complaint.” Quiller v. Baraclays Am./Credit, Inc., 727 F.2d 1067,
1069 (11th Cir. 1984). See also La Grastav. First Union Securities, Inc., 358 F.3d 840, 845
(11th Cir. 2004) (“[A] Rule 12(b)(6) dismissal on statute of limitations grounds is appropriate
only if it is ‘ apparent from the face of the complaint’ that the claim is time-barred” (quoting
Omar ex rel. Cannon v. Lindsey, 334 F.3d 1246, 1251 (11th Cir. 2003)); Douglas v. Yates,
535 F.3dl316,1321 (11th Cir. 2008) (same). “At the motion-to-dismiss stage, a complaint
may be dismissed on the basis of a statute-of-limitations defense only if it appears beyond
a doubt that Plaintiffs can prove no set of facts that toll the statute.” Tello v. Dean Witter
Reynolds, Inc., 410 F.3d 1275, 1288 n.13 (11th Cir. 2005).
The federal claims against the ten newly added Defendants arise under section 1983.
The accrual date for an action under section 1983 is “governed by federal rules conforming
in general to common-law tort principles.” Wallace v. Kato, 549 U.S. 384,127 S.Ct. 1091,
1095,166 L.Ed.2d 973 (2007). “Under those principles, it is ‘the standard rule that accrual
occurs when the plaintiff has a complete and present cause of action[,] that is, when the
plaintiff can file suit and obtain relief.’” Id. (quoting Bay Area Laundry and Dry Cleaning
Pension TrustFundv. Ferbar Corp. ofCal, Inc., 522 U.S. 192,201,118 S.Ct. 542, 549,139

Page 7 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 8 of 15 PagelD 2805

L.Ed.2d 553 (1997)) (internal quotation marks omitted). State law governs the limitations
period in section 1983 actions, which are best characterized as personal injury actions. Erick
v. Border Patrol of Fla. State, 154 F. App’x 193, 194 (11th Cir. 2005). Personal injury
actions in Florida have a four-year statute of limitations. See Fla. Stat. § 95.11(3). The
statute of limitations begins to run from the date “the facts which would support a cause of
action are apparent or should be apparent to a person with a reasonably prudent regard for
his rights.” Rozar v. Mullis, 85 F.3d 556, 561-62 (11th Cir. 1996) (quotations omitted).
The fifth complaint makes clear that the section 1983 claims related to the fabrication
and withholding of evidence and alleged false arrests accrued on or about the time when
Plaintiff was arrested in June and July of 2011. Accepting the July 2011 arrest as the latest
date, Plaintiff should have filed these claims by July 2015. Plaintiff waited until January
2018 (for Defendants Bishop, Marcotrigiano, Morman, Honeywell, Khalil Abdo, Silva,
Michael Quill, Nada Abdo Quill) and April 2018 (for Defendants Robinson and Allen) to file
these claims.2

Accordingly, none of the federal claims against the ten newly added

Defendants survive.
To warrant equitable tolling, Plaintiff must show that she pursued her rights diligently
and that extraordinary circumstances prevented her from filing a timely complaint. Villarreal
v. R.J. Reynolds Tobacco Co839 F.3d 958, 971 (11th Cir. 2016) (en banc). Plaintiff has
not met this burden because she has failed to explain how she was prevented from filing a
timely complaint against the ten newly added Defendants, whose alleged misconduct
occurred in 2011. See Bost v. Fed. Express Corp., 372 F.3d 1233, 1242 (11th Cir. 2004)

2 With respect to only Defendant Bishop, the fifth complaint alleges conduct on his part that
occurred in 2013. Even if the Court were to assume that these allegations state a section 1983 claim,
the claim accrued in 2017, which is still untimely.
Page 8 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 9 of 15 PagelD 2806

(“Equitable tolling ‘is an extraordinary remedy which should be extended only sparingly.’”).
Moreover, the relation-back doctrine contained within Rule 15(c) ofthe Federal Rules
of Civil Procedure is inapplicable here. Plaintiff attempted to join entirely new defendants
more than four years after this action commenced, which is well after the statute of
limitations expired. See Powers v. Graff, 148 F.3d 1223,1228 (11th Cir. 1998) (noting that
the relation-back doctrine does not apply in instances where a plaintiff attempts to join
entirely new defendants that were known to the plaintiff before the running ofthe statute of
limitations). And the allegations ofthe fifth complaint reflect that Plaintiff knew about these
defendants prior to the running ofthe statute of limitations. In other words, this is not a case
of mistake on Plaintiffs part.
Finally, Plaintiffs argument that the statute oflimitations for her causes of action did
not begin to run until she was acquitted and released from custody are inapplicable to the
section 1983 claims she has pled in the fifth complaint. Plaintiff relies on Heck v. Humphrey,
512 U.S. 477 (1994). Plaintiffs reliance is misplaced because the claim at issue in Heck was
synonymous to a claim for malicious prosecution, id at 489-90, and the Supreme Court in
Wallace declined to extend Heck to section 1983 claims of false arrest, which are the section
1983 claims pled here. See Wallace, 549 U.S. at 397.
In sum, the motions to dismiss filed by the ten newly added Defendants will be
granted to the extent that the statute of limitations bars the federal claims against them.
Those claims are dismissed with prejudice.
IL

Res Judicata Bars the Federal Claims against Dirks and Brown
Dirks and Brown argue, in relevant part, that the federal claims against them are

barred under the doctrine ofresjudicata because Plaintiff alleged similar claims against them
Page 9 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 10 of 15 PagelD 2807

in a nearly identical lawsuit and the district court dismissed those claims with prejudice
before Plaintiff alleged the claims in this case. Before the Court analyzes the applicable law,
the Court will provide a brief summary of the similar case.3
A.

The Similar Case

On June 9,2015, Plaintiff filed Paylan v. Bondi, et al, Case 8:15-cv-1366-CEH-AEP,
in the Middle District of Florida, Tampa Division. On February 28,2017, Magistrate Judge
Anthony E. Porcelli entered a fifty-nine-page report and recommendation (the “R&R”) that,
in relevant part, granted the motion to dismiss filed by Dirks and Brown (Dkt. 264 in Case
8:15-cv-1366) and recommended that they be dismissed from the action with prejudice.
(Dkt. 419 in Case 8:15-cv-1366).4 The R&R noted that Plaintiff had previously amended her
complaint to cure earlier deficiencies identified by the court. The operable complaint was
Plaintiffs Second Amended Complaint, filed on April 22,2016. (Dkt. 232 in Case 8:15-cv1366). The Second Amended Complaint was filed after this case had been dismissed with

3 The Court may take judicial notice of the filings in this other case without converting the
motion to dismiss into a motion for summary judgment. Rule 201(b) of the Federal Rules of
Evidence allows a court to take judicial notice of “a fact that is not subject to reasonable dispute
because it: (1) is generally known within the trial court’s territorial jurisdiction; or (2) can be
accurately and readily determined from sources whose accuracy cannot reasonably be questioned.”
Fed. R. Evid. 201(b). Notably, courts may take judicial notice of documents from a prior proceeding
because they are matters of public record and “capable of accurate and ready determination by resort
to sources whose accuracy could not reasonably be questioned.” Horne v. Potter, 392 Fed.Appx.
800, 802 (11th Cir. 2010). However, a ‘“court may take judicial notice of a document filed in
another court ‘not for the truth of the matters asserted in the other litigation, but rather to establish
the fact of such litigation and related filings.’” United States v. Jones, 29F.3d 1549,1553 (11th Cir.
1994) (quoting Liberty Mut. Ins. Co. v. Rotches Pork Packers, Inc., 969 F.2d 1384, 1388 (2d Cir.
1992)). As such, “a court may take judicial notice of another court’s order only for the limited
purpose of recognizing the ‘judicial act’ that the order represents or the subject matter of the
litigation.” Jones, 29 F.3d at 1553.
4 Plaintiffhad sued approximately sixteen defendants. The R&R recommended the dismissal
of all of the defendants with prejudice, with the exception of Defendant Comaneci Devage, who is
not a defendant in the instant case.
Page 10 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 11 of 15 PagelD 2808

prejudice by the state court and during the pendency ofPlaintiff s appeal to the Second DCA.
The Second Amended Complaint included the following federal claims against Dirks
and Brown: Count I -42U.S.C. § 1983, fabrication/concealment of evidence for the June 9,
2011 false arrest; Count II - 42 U.S.C. § 1983, June 9, 2011 false arrest; Counts III - 42
U.S.C. § 1983, Fourth Amendment violation; Count IV - 42 U.S.C. § 1983, fabrication of
charges and fraudulent criminal report affidavit; Count V - 42 U.S.C. § 1983, malicious
prosecution for the June 9, 2011 false arrest; Count VI - 42 U.S.C. § 1983, malicious
prosecution for the July 1, 2011 false arrest; Count VII - 42 U.S.C. § 1983, conspiracy to
deprive constitutional rights; and Count VIII - 42 U.S.C. § 1983, First Amendment
retaliation. Id.
The federal claims against Dirks and Brown related to “a search warrant executed at
Paylan’s residence on June 9, 2011; Paylan’s arrest on June 9, 2011; and Paylan’s second
arrest on July 1, 2011.” (Dkt. 419 in Case 8:15-cv-1366). The R&R concluded that the
record reflected probable cause for Paylan’s arrests, which was fatal to her section 1983
claims. Specifically: “because Paylan’s allegations do not disturb probable cause in support
of her two arrests and the search of her residence, she cannot plausibly assert any claims
connected to a deprivation of rights in connection with her arrests and the search.” Id. at 40.
The R&R further concluded that prosecutorial immunity was applicable so that “all
counts against Dirks (Counts I-VIII, XI-XIII, and XIV-XVI) and Brown (Counts I-VIII, XIXII, and XIV-XVI) should also be dismissed for this additional reason.” Id. at 46.
On March 28, 2017, the district court adopted the R&R, dismissed all claims against
Dirks and Brown with prejudice, and terminated them as defendants to the action. (Dkt. 438
in Case 8:15-cv-1366). The Court underscores that this dismissal with prejudice occurred
Page 11 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 12 of 15 PagelD 2809
after this case had been dismissed by the state court and before Plaintiff subsequently
amended her complaint post-remand from the Second DCA.
B.

Analysis

As the Eleventh Circuit aptly noted: “We may use the tools of preclusion and res
judicata to further the public interests of preventing inconsistent results, tamping down the
cost and vexation of multiple lawsuits, conserving judicial resources, and encouraging
reliance on adjudication.” Borrero v. United Healthcare ofNew York, Inc., 610 F.3d 1296,
1307-08 (11 th. Cir. 2010). Resjudicata will bar a subsequent action if: (1) the prior decision
was rendered by a court of competent jurisdiction; (2) there was a final judgment on the
merits; (3) the parties were identical in both suits; and (4) the prior and present causes of
action are the same. Davila v. Delta Air Lines, Inc., 326 F.3d 1183, 1187 (11th Cir. 2003).
The similarity of two causes of action is evaluated by looking to the broad “nucleus of
operative facts” of the actions. Borrero, 610 F.3d at 1308.
Here, it is undisputed that the prior dismissal with prejudice of Dirks and Brown was
rendered by a court of competent jurisdiction. Plaintiff argues that the action was not a prior
action because technically this case was filed first, in 2014. The Court has not found case
law on point that addresses this procedural quagmire. But the Court concludes that the
similar case still constitutes a prior action because—although it was filed after this case had
been closed by the state court—the R&R (and adoption of same) which dismissed Dirks and
Brown with prejudice were entered before Plaintiff filed her amended complaint against
Dirks and Brown. In other words, at the time that Plaintiff amended her complaint against
Dirks and Brown, which was on January 5, 2018, a court of competent jurisdiction had
already issued a final ruling on the merits with respect to the same parties and causes of
action.
Page 12 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 13 of 15 PagelD 2810
Plaintiff also argues that the district court’s dismissal with prejudice of Dirks and
Brown from the similar lawsuit did not constitute a final judgment because the case remains
pending against Defendant Devage and the district court declined to enter final judgment
until the conclusion of the case. The Court acknowledges that this is yet another procedural
quagmire. And, like the last issue, the Court has not found any case law directly on point
\

with respect to this unique procedural posture. Nonetheless, the Court is guided by the
Eleventh Circuit’s general principle that a dismissal for failure to state a claim is a judgment
on the merits. See Nat 7 Ass ’n for the Advancement of Colored People (NAACP) v. Hunt,
891 F.2d 1555, 1560 (11th Cir. 1990) (“the Supreme Court has clearly stated that ‘[t]he
dismissal for failure to state a claim under Federal Rule of Civil Procedure 12(b)(6) is a
‘judgment on the merits.”’) (quoting Federated Dept. Stores, Inc. v. Moitie, 452 U.S. 394,
399 n. 3,101 S.Ct. at 2428 n. 3); see also Jaffree v. Wallace, 837 F.2d 1461,1467 (11th Cir.
1988) (noting that res judica applies even if an appeal of the earlier judgment is likely).
Accordingly, the district court’s dismissal of Dirks and Brown with prejudice operated as a
final judgment on the merits for res judicata purposes.
Finally, the similar case and present case indisputably involve the same causes of
action. Although the complaints may look different because Plaintiff added new factual
allegations and altered her legal claims,“[r]es judicata applies not only to the exact legal
theories advanced in the prior case, but to all legal theories and claims arising out of the same
nucleus of operative facts.” Wesch v. Folsom, 6 F.3d 1465, 1471 (11th Cir.1993). “[I]f a
case arises out of the same nucleus of operative facts, or is based Upon the same factual
predicate, as a former action, ...the two cases are really the same ‘claim’ or ‘cause of action’
for purposes of res judicata.” Griswold v. County of Hillsborough, 598 F.3d 1289, 1293
(11th Cir. 2010).
Page 13 of 15

Case 8:18-cv-00494-JSM-AAS Document 104 Filed 07/11/18 Page 14 of 15 PagelD 2811
In sum, the federal claims against Brown and Dirks here arise from the same nucleus
of operative fact as the similar case that previously dismissed those claims with prejudice.
While the allegations here may be more detailed, the operable complaints in both cases
contain nearly identical factual allegations concerning the June 9, 2011 and July 1, 2011
arrests. Both cases were based on the “same causes of action” for purposes of res judicata.
Accordingly, the federal claims alleged against Dirks and Brown are dismissed with
prejudice.
III.

The Federal Claims against Dirks and Brown Are Insufficient under Rule
12(b)(6) and Plaintiff Does Not Get a Sixth Bite of the Apple
Even if the federal claims against Dirks and Brown were not barred, they remain

insufficiently pled and therefore fail to state a claim under Rule 12(b)(6) of the F ederal Rules
of Civil Procedure. For example, rather than simplify the claims, the complaint’s fifth
iteration makes them more complicated through the addition of more defendants, which
Plaintiffhas lumped together without attributing sufficient facts to Dirks and Brown. In light
of the five prior attempts to amend, the Court concludes that any further opportunity to
amend these claims would be futile.
IV.

The Court Declines to Exercise Supplemental Jurisdiction
Having dismissed all of the federal claims in this case with prejudice, the Court

declines to exercise supplemental jurisdiction over the state law claims. The decision to
exercise or decline supplemental jurisdiction includes considerations of judicial economy,
convenience, fairness to litigants, and comity. Baggett v. First Nat. Bank ofGainesville, 117
F.3d 1342, 1353 (11th Cir. 1997). Further, “[sjtate courts, not federal courts, should be the
final arbiters of state law.” Id. “Thus, where a court has dismissed all federal claims in a

Page 14 of 15

Case 8:18-cv-00494-JSM-AAS .Document 104 Filed 07/11/18 Page 15 of 15 PagelD 2812
given case, it is often justified in dismissing the state claims as well.” Betts v. Hall, 679 F.
App’x 810, 814 (11th Cir. 2017). If the federal claims are dismissed prior to trial, the
Eleventh Circuit strongly encourages dismissal of the supplemental state law claims. Id.
(citing Mergens v. Dreyfoos, 166 F.3d 1114, 1119 (11th Cir. 1999)).
This action was pending in state court for approximately four years. It was only
recently removed to this Court and the federal claims that prompted the removal are now
dismissed with prejudice. The Court sees no compelling reason to retain jurisdiction over
the state law claims under these circumstances.
It is therefore ORDERED AND ADJUDGED that:
1.

Defendants’ Motions to Dismiss filed at Dkts. 54, 58, 59, and 96 are granted
to the extent stated herein.

2.

The federal claims alleged against all Defendants are hereby dismissed with
prejudice.

3.

The Clerk of Court is directed to remand this case to the Thirteenth Judicial
Circuit, in and for Hillsborough County, Florida, and provide that court with
a copy of this Order.

4.

The Clerk of Court is directed to close this case and terminate any pending
motions as moot.

DONE and ORDERED in Tampa, Florida on July 11, 2018.

JAi\&S S. MOODY, JR.
UNITED STATES DISTRICT JUDGE

Copies furnished to:
Counsel/Parties of Record
Page 15 of 15

